U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

September 29, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Brett C. Lillemoe v. United States of America, No. 20-163
Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on August 7, 2020.
Although the government waived its right to file a response, the Court has requested that
a response be filed. The government’s response is now due on September 28, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension
of time to and including October 28, 2020, within which to file the government’s
response.
This extension is requested to complete preparation of the government’s response,
which was delayed because of the heavy press of earlier assigned cases to the attorneys
handling this matter.

Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

20-0163
LILLEMOE, BRETT C.
USA

ALEXANDRA ANASTASIA EKATERINA
SHAPIRO
SHAPIRO ARATO BACH LLP
500 FIFTH AVENUE
40TH FLOOR
NEW YORK, NY 10110
212-257-4880
ASHAPIRO@SHAPIROARATO.COM

